No. 19-783
In the

Supreme Court of the United States
NATHAN VAN BUREN,
Petitioner,
v.
UNITED STATES,
Respondent.

On Writ of Certiorari to the United States
Court of A ppeals for the Eleventh Circuit
BRIEF FOR AMICUS CURIAE UNITED STATES
TECHNOLOGY POLICY COMMITTEE OF THE ACM
IN SUPPORT OF NEITHER PARTY
A rnon D. Siegel, Esq.
655 Avenue of the Americas
New York, New York 10010

A ndrew Grosso
Counsel of Record
Mark D. Rasch
Ronald J. Jarvis
A ndrew Grosso & A ssociates
1101 Thirtieth Street NW,
Suite 500
Washington, D.C. 20007
(202) 298-6500
agrosso@acm.org
Counsel for Amicus Curiae

297053

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . ii
INTEREST OF THE AMICUS CURIAE  . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
THE DEFINITION OF “EXCEEDING
UNAUTHORIZED ACCESS” CA NNOT
BE I N T E R P R E T E D T O I NC LU DE
ACCESSING DATA PUBLICLY DISCLOSED
ON THE INTERNET . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. The CFAA Must Be Construed Narrowly  . . . . . 4
B. Publishing Information on the Internet Grants
Authority to Access That Information  . . . . . . . . 5
C. The Automated Scraping of the Internet
for Publicly Posted Data, for Whatever
Purpose, Is Not Prohibited by the CFAA . . . . . . 9
D. Automated Scraping Is an Invaluable Tool
for Information Technology Professionals  . . . . 12
CONCLUSION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Facebook, Inc. v. Power Ventures, Inc.,
844 F.3d 1058 (9th Cir. 2016) . . . . . . . . . . . . . . . . . . . . 6
HiQ Labs, Inc. v. LinkedIn Corp.,
938 F.3d 985 (9th Cir. 2019) . . . . . . . . . . . . . . . . . . . . . 7
Jones v. United States,
529 U.S. 848 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Leocal v. Ashcroft,
543 U.S. 1 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
QVC, Inc. v. Resultly, LLC,
159 F. Supp. 3d 576 (E.D. Pa. 2016) . . . . . . . . . . . . . . . 7
Sandvig v. Barr,
2020 U.S. Dist. LEXIS 53631
(D.D.C. March 27, 2020) . . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. John,
597 F.3d 263 (5th Cir. 2010) . . . . . . . . . . . . . . . . . . . . . 6
United States v. Morrison,
844 F.2d 1057 (4th Cir. 1988) . . . . . . . . . . . . . . . . . . . 12
United States v. Nosal,
676 F.3d 854 (9th Cir. 2011) . . . . . . . . . . . . . . . . . . . . . 8

iii
Cited Authorities
Page
United States v. Thompson/Center Arms Co.,
504 U.S. 505 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Valle,
807 F.3d 508 (2d Cir. 2015) . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Wiltberger,
18 U.S. (5 Wheat.) 76 (1820) . . . . . . . . . . . . . . . . . . . . . 4
Yates v. United States,
574 U.S. 516 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Statutes and Other Authorities
17 U.S.C. § 506(a)(B) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
17 U.S.C. § 506(a)(C) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
17 U.S.C. § 1201  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
18 U.S.C. § 641  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
18 U.S.C. § 1029  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
18 U.S.C. § 1030(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
18 U.S.C. § 1030(a)(2)(B)  . . . . . . . . . . . . . . . . . . . . . . . . . 12
18 U.S.C. § 1030(a)(2)(C)  . . . . . . . . . . . . . . . . . . . . . passim

iv
Cited Authorities
Page
18 U.S.C. § 1030(a)(5)(A)  . . . . . . . . . . . . . . . . . . . . . . . . . 10
18 U.S.C. § 1030(e)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
18 U.S.C. § 1030(g) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
18 U.S.C. § 1343  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
18 U.S.C. § 1831  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
18 U.S.C. § 2701  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Simson Garfinkel & Gene Spafford, Web Security,
	Privacy and Commerce (2d ed. 2011) . . . . . . . . . . . . . 6

1
INTEREST OF THE AMICUS CURIAE
The United States Technology Policy Committee
(“USTPC”) is the U.S. public policy committee of the
Association for Computing Machinery (“ACM”). ACM
is the oldest and largest international scientific and
educational organization in the field of computing,
with a membership of over 100,000 professionals. It is
dedicated to advancing the arts, sciences, and applications
of information technolog y. USTPC educates U.S.
government organizations, the computing community,
and the American public on matters of U.S. public policy
concerning information technology.
USTPC submits1 this brief amicus curiae out of
a firm conviction that the questions posed in this case
affect in pivotal ways data and computing scientists, as
well as other professionals who make use of the Internet
and computing technology. Increased reliance upon the
use of the Internet in all professions makes it critical
that clear, bright, and unambiguous lines be drawn as
to what the laws do and do not proscribe. Such clarity is
particularly important when the underlying technology
and the ubiquitous use of that technology continue to
change at a rapid and accelerating pace, and where the
laws to be clarified include criminal as well as civil liability
for their breach. The members of the USTPC on this brief
are listed in the appendix.
1. No counsel for a party authored this brief in whole or in part,
and no such counsel or party made a monetary contribution intended
to fund the preparation or submission of this brief. No person other
than amici curiae, their members, or their counsel made a monetary
contribution to its preparation or submission. The parties have
consented to the filing of this brief.

2
SUMMARY OF THE ARGUMENT
Section 1030(a)(2)(C) of the Computer Fraud and Abuse
Act (“CFAA”) proscribes “exceeding authorization” when
accessing a computer and thereby obtaining information.
This statute is both criminal and civil. Moreover, it is
capable of both a broad reading, proscribing any use of
any kind of electronic device in any manner and for any
purpose not expressly permitted by the device’s owner—
essentially using the CFAA to furnish civil, contractual
prohibitions with criminal penalties; or a narrow reading,
interpreting the Section as akin to a “data theft statute”—
thereby restricting this provision of the statute to the
proscription actually set forth in its text.
The USTPC represents information technology
professionals, including data scientists, who use computer
systems and the Internet to conduct research and to
learn about society and the world. These professionals,
along with security researchers, innovators, and those
who test, prod, and probe the connections between and
among systems functioning on the Internet, must remain
free to find, collect, and use publicly-available data, and
to access the publicly-available systems on which data
are maintained, without the threat of prosecution or civil
lawsuit. The CFAA must be read narrowly, according to
its stated terms as drafted by Congress, allowing free
access to publicly available information.

3
ARGUMENT
THE DEFINITION OF “EXCEEDING
UNAUTHORIZED ACCESS” CANNOT BE
INTERPRETED TO INCLUDE ACCESSING DATA
PUBLICLY DISCLOSED ON THE INTERNET
Section 1030(a)(2) of the CFAA prohibits a person
from intentionally “access[ing] a computer without
authorization,” or doing so while intentionally “exceed[ing]
authorized access,” and thereby “obtaining information
from any protected computer.” 18 U.S.C. § 1030(a)(2)(C).
A “protected computer” includes any computer
operating in interstate commerce. 18 U.S.C. § 1030(e)
(2)(B). This definition includes any computer connected
to the Internet—which today is almost every computer.
Therefore, the information protected by Section 1030(a)
(2)(C) includes all websites that are maintained on such
computers and all the information on those websites.
The Court and the Petitioner have framed the issue
here as follows (emphasis added):
Whether a person who is authorized to access
information on a computer for certain purposes
violates Section 1030(a)(2) of the Computer
Fraud and Abuse Act if he accesses the same
information for an improper purpose.
This framing raises, indeed it begs, two questions:
first, what is an “improper purpose”; and, second, what
does a person’s “purpose” for accessing information
have to do with the prohibitions in the Act, if anything.

4
“Proper” and “improper” purposes are neither defined
nor otherwise referenced by the Act.
These questions are significant because of the usual
way that the Internet operates: by posting information
(i.e., webpages and their contents, without password
protections, copyright protection, or other control devices),
the information is publicly disclosed—it is made available
to the public for anyone to access. Thereafter any attempt
to limit access to that information results in an inherent
contradiction: by making the information available in this
manner to the public, the posting entity has given access
to the information to the world; so how can access by any
particular person, or access for any particular purpose,
exceed the authorization that was initially given?
The answer is that it cannot.
A. The CFAA Must Be Construed Narrowly
The CFAA imposes both civil and criminal liability.
For this reason, the rule of lenity applies; 2 and the
prohibitions in the Act, whether in the criminal or civil
context, must be interpreted similarly. See Leocal v.
Ashcroft, 543 U.S. 1, 11 n.8 (2004).
2. The rule of lenity requires “penal laws . . . to be construed
strictly.” United States v. Wiltberger, 18 U.S. (5 Wheat.) 76, 95
(1820). “[W]hen choice has to be made between two readings of
what conduct Congress has made a crime, it is appropriate, before
we choose the harsher alternative, to require that Congress
should have spoken in language that is clear and definite.” Jones v.
United States, 529 U.S. 848, 858 (2000) (internal quotation marks
and citation omitted); see also Yates v. United States, 574 U.S.
516, 547-48 (2015) (application of the rule of lenity ensures that
criminal statutes will provide fair warning concerning conduct
rendered illegal.)

5
Because it is a criminal law, the CFAA must be
narrowly construed—even in the civil context. Questions
as to the conduct proscribed, including the scope of safe
harbors, must be resolved in favor of a defendant. Id.
(citing United States v. Thompson/Center Arms Co., 504
U.S. 505, 517-18 (1992) (plurality opinion) (applying the
rule of lenity to a tax statute, in a civil setting, because
the statute had criminal applications and thus had to be
interpreted consistently with its criminal applications)).
See generally United States v. Valle, 807 F.3d 508, 523
(2d Cir. 2015) (discussing application of the rule of lenity
in reversing conviction under the Computer Fraud and
Abuse Act).
B. Publishing Information on the Internet Grants
Authority to Access That Information
The act of publicly posting information on the
Internet, by its nature, authorizes a user of the Internet
to view that data, viz., to access it.
At a high level, here is how web pages and readers
on the Internet interact: (1) a webpage is placed on or
“hosted” (maintained) by a computer, or “server,” operated
by the person posting that webpage; (2) a viewer (doing so
electronically, through his or her web browser on his or her
own computer) makes a request of the server hosting the
webpage to send to his or her computer a copy of the data
on that web page;3 (3) the server responds by transmitting
3. At this point, there is an intermediate step: the server,
acting on the instructions with which it has been programmed,
determines what information to release to the viewer. This may
be as simple as providing all of the information on an entire web
page; or may involve creating custom content for only that viewer;

6
a copy of the webpage and possibly additional data to the
viewer’s computer; and (4) the viewer’s computer then
reconstructs the webpage for the viewer to examine.
See generally Simson Garfinkel & Gene Spafford, Web
Security, Privacy and Commerce (2d ed. 2011). In effect,
the poster authorizes the viewer to request, download,
copy, and take possession of the data in its entirety.
Technologically, the question of motive or purpose
does not arise. Nor does it arise under the CFAA.
As noted above, Section 1030(a)(2)(C) of the CFAA
prohibits a person from intentionally “access[ing] a
computer without authorization,” or doing so while
intentionally “exceed[ing] authorized access,” and thereby
“obtaining information.” Nowhere is “motive,” “goal,”
“reason,” or “purpose,” whether proper or improper,
mentioned—it is not in this Section. Because this is a
criminal law, and must be narrowly construed, it cannot
be read into the Section.
Violations of terms of service, policy statements,
warning notices, and the like do not convert the accessing
of information into “exceeding” the authorization already
granted to access that information. This is so because
the authority to view, download, and copy the data was
granted in toto by the public posting of the data. There is
no other authorization required. See, e.g., Facebook, Inc. v.
Power Ventures, Inc., 844 F.3d 1058, 1067 (9th Cir. 2016)
(“[A] violation of the terms of use of a website—without
more—cannot establish liability under the CFAA.”).
Contra United States v. John, 597 F.3d 263, 273 (5th Cir.
or the server may refuse to respond to a request that it deems to
be unauthorized.

7
2010) (employee who accesses information from a company
computer, which information he is entitled to access,
exceeds his authority to access such information when he
does so both in violation of company policy and for use in
a criminally fraudulent scheme).
As the Ninth Circuit noted in HiQ Labs, Inc. v.
LinkedIn Corp., 938 F.3d 985, 1002 (9th Cir. 2019), petition
for cert. filed, No. 19A819 (2020):
[T]he CFAA contemplates the existence of three
kinds of computer information: (1) information
for which access is open to the general public
and permission is not required, (2) information
for which authorization is required and has
been given, and (3) information for which
authorization is required but has not been given
(or, in the case of the prohibition on exceeding
authorized access, has not been given for the
part of the system accessed).[4]
This is not to say that the clause regarding “exceeding
authorized access” has no meaning. Nor does it imply that
there are not other statutes that address improper motive
4. However, an Internet user must not have to guess whether
he or she has authority to access information on a computer
system, nor be subject to a risk that he or she is mistaken in
this regard. Unless a prohibition is clear and unambiguous, the
authority must be deemed granted. Cf. QVC, Inc. v. Resultly, LLC,
159 F. Supp. 3d 576, 596 (E.D. Pa. 2016) (“The relevant question
is not whether [the defendant] Resultly was granted permission
to access the information on [the website] QVC.com, but whether
that authorization was ever rescinded or limited in a way that
would put Resultly on notice that it was not authorized to access
information it was otherwise entitled to access.”).

8
or improper conduct—it is simply that Section 1030(a)(2)
(C) does not, and must not be read as prohibiting access
with any particular motive or by any particular means.
“Exceeding authorized access” has a meaning. The
CFAA defines the term “exceeds authorized access” as
“to access a computer with authorization and to use such
access to obtain or alter information in the computer that
the accesser is not entitled so to obtain or alter.” 18 U.S.C.
§ 1030(e)(6). (We confine ourselves here to the prong of
“obtaining” information, as the alteration of information
in a computer in not at issue in this case.)
As noted above, the posting of information on the
Internet by means of maintaining it on a computer that
is connected to the Internet means, by necessity, allowing
anyone who can view that information to have full access
to it. “Exceeding authorized access” in such a context is
not possible.
With this being said, this prong of the statute does
have a meaning: when a person who has authority to
access a computer system generally does so, but then
hacks into a portion of the system that he or she is not
permitted to access. See United States v. Nosal, 676 F.3d
854 (9th Cir. 2011) (en banc) (discussing hacking in the
context of the CFAA). However, because motive is not
mentioned in this Section of the CFAA, it must not be read
into this Section so as to expand the conduct proscribed
by Congress. Similarly, the Section does not mention
the means whereby a user accesses the information: it
mentions neither browsing and viewing by an individual;
nor the use of automated software (colloquially known as

9
a “bot”) to mechanically examine and collect, or “scrape,”5
all or a sizeable portion of a website.6
C. The Automated Scraping of the Internet for
Publicly Posted Data, for Whatever Purpose, Is
Not Prohibited by the CFAA
Data researchers have many reasons for collecting
and analyzing information available on the Internet.
Examples of these reasons include: the evaluation of
gender and racial biases on the Internet for job postings
and other employment matters, and for the award of
contracts, grants, and similar economic advantages;
the correlation of financial grants and contributions to
authors of published articles, so as to identify possible
conflicts of interest affecting the reliability of the analysis
and conclusions in those articles; the evaluation and
comparisons of economic data of categories of individuals,
of companies, of nations, etc.; the mapping of geographic
data; and audits of search engine functions for accuracy,
biases, and conflicts of interest. Concrete examples of
these and other research projects are set out below for
the Court’s consideration.
Section 1030(a)(2)(C) of the CFAA should not be read
so as to put data researchers at risk for criminal or civil
liability for conducting research that involves collecting
information that is publicly available on the Internet.
See Sandvig v. Barr, 2020 U.S. Dist. LEXIS 53631, *245. As used in this brief, the term “scraping” means accessing
and collecting data from a webpage using automated means.
6. Indeed, this is how search engines such as Google, Yahoo!,
and others function.

10
43 (D.D.C. March 27, 2020), appeal filed, No. 20-5153
(D.C. Cir. May 28, 2020) (researchers accessing publicly
accessible data in a manner that violates a website’s
terms of service do not violate the criminal provisions of
the CFAA). A company should not be allowed to use the
penalties of the CFAA to prohibit the collection of the
information that it posts when that collection is done for
any purpose, including, for example, determining whether
that company has a financial conflict of interest adversely
affecting the reliability or objectivity of its data or
operations. Companies that allow prospective purchasers
of its goods or services to browse its websites must not use
the proscriptions of this Section of the CFAA to prohibit
scientists, lawyers, or other professionals to do the same
for research purposes. Similarly, such companies should
not be able to use the CFAA to impede and discourage
such research by prohibiting any particular means of
collecting such information, such as scraping—whether
the prohibition is posted in English on the website or
posted in code in a “robots.txt” file.7
This does not mean that the misuse of the Internet,
a website, or a website’s data is not actionable, as other
statutes are available under state and federal law, both
criminal and civil, to prohibit specific instances of misuse.
For example, excessive or inappropriate use of
automated search mechanisms may be prohibited by
Section 1030(a)(5)(A) of the CFAA, which provides that
whoever

7. A convention observed by some indexing services is to look
for a file named “robots.txt” on a web site and use its contents as
advice on what to index or avoid.

11
know ingly causes the transmission of a
program, information, code, or command, and
as a result of such conduct, intentionally causes
damage without authorization, to a protected
computer [commits a federal offense and shall
be punished as further provided by Section
1030(c) of the CFAA].
The CFAA provides for a civil remedy for a victim of
this offense, found in Section 1030(g). It also allows for
injunctive relief.
The theft of data may be the subject of yet other laws:
(1) social security numbers, credit card numbers, and
other bank access information are addressed by 18 U.S.C.
§ 1029 (unauthorized access devices);
(2) confidential business information, including trade
secrets, is addressed by the Economic Espionage Act, 18
U.S.C. § 1831 et seq., particularly by Section 1832;
(3) circumvention of an access control device protecting
the data, such as a password, or a mandatory questionand-answer page interposed between the viewer and the
data, or a paywall; or otherwise hacking into a computer
system, including utilizing a software vulnerability or a
direct attack on the hardware, is conduct that may be
covered by such laws as the wire fraud statute, 18 U.S.C.
§ 1343; the anticircumvention provisions of the Digital
Millennium Copyright Act, 17 U.S.C. § 1201; and the
Stored Communications Act, 18 U.S.C. § 2701 et seq.;
(4) subsequent dissemination of copyrighted material
accessed may be prohibited by copyright law, including

12
the criminal provisions of the No Electronic Theft Act,
17 U.S.C. § 506(a)(B) & (C); and
(5) taking of government information may be
addressed by another provision of the CFAA, 18 U.S.C. §
1030(a)(2)(B), or by 18 U.S. Code § 641 (see United States
v. Morrison, 844 F.2d 1057 (4th Cir. 1988) (theft and sale
to the press of classified government information)).
Another example is the violation of the terms of
service for a website. Such a violation may result in a claim
for breach of contract and the termination of service to the
user who violated the terms of service. There is no reason
for the criminal and the civil remedies in the CFAA to be
implicated, and no reason for these cases to be litigated in
federal courts as opposed to state court venues.
Noteworthy is that equating a violation of the CFAA
with a violation of an internet service provider’s terms
of service, or a violation of an employment agreement
concerning the use of a company’s computer system,
or disregarding the posting of a limitation for the use
of a website, will result in the following anomalous
judicial situation: private and commercial entities will
be empowered to draft criminal laws by means of the
language they use in these agreements—enforceable
through a bootstrapping process under the CFAA. Under
our Constitution, it is up to Congress to draft criminal
laws—not private entities.
D. Automated Scraping Is an Invaluable Tool for
Information Technology Professionals
The USTPC urges the Court to recognize fully the
need for a narrow interpretation of Section 1030(a)(2)

13
(C). For this purpose, we include the following examples
of scholarly research that have been conducted by data
scientists using automated scraping that have had a
positive impact within the disciplines of computer science
and related fields of science and technology:
1.

Em i l i o Fe r r a r a , Pa s q u a l e D e Me o , e t
a l., Web Dat a Ex tr a c tio n , Ap plicatio n s
and Techniques: A Survey, 70 K now ledge
Based Systems 301-23 (Nov. 2014), https://doi.
org/10.1016/j.knosys.2014.07.007: Data mining
or data extraction from website content using
scraping or web crawling techniques is a key tool
enabling the performance of analysis in business
intelligence systems and can be used to gather
data disseminated by social platform users for
analysis of human behavior on a large scale.

2.

Ensheng Dong, Hongru Du, et al., An interactive
web-based dashboard to track COVID-19 in
real time, The Lancet Infectious Diseases Vol
20 (May 2020), https://doi.org/10.1016/S14733099(20)30120-1: Development of an online
interactive dashboard that aggregates local
media and government reports, and uses twitter
feeds and online news services to visualize and
track reported COVID-19 cases in real time,
including the location and number of confirmed
cases, deaths and recoveries for all countries.

3.

Nicolas Christin, Traveling the Silk Road: A
measurement analysis of a large anonymous
online marketplace, P r o c eedi ng s of t h e
International World Wide Web Conference,
WWW ‘13, at 213-224. (Rio de Janeiro, Brazil

14
May 2013), https://www.andrew.cmu.edu/user/
nicolasc/publications/TR-CMU-CyLab-12-018.
pdf: Study conducted an economic analysis of
dark web markets by daily web crawls, collecting
and analyzing data from hidden international
marketplaces using Bitcoin exchange currency,
concluding that the Silk Road service was used as
a market for controlled substances and narcotics.
4.

Kyle Soska and Nicolas Christin, Measuring
the Longitudinal Evolution of the Online
A n o n y m o u s Ma r k e t p l a c e E c o s y s t e m ,
P roceedings of the 24th USENIX Security
Symposium (USENIX Security 2015) at 33-48.
(Washington, DC August 2015), https://dl.acm.
org/doi/10.5555/2831143.2831146: Researchers
conducted a two-year analysis of the anonymous
online marketplace ecosystem, the goods sold, the
marketplace economics, and the effectiveness of
law enforcement, leading to policy developments
such as the European Monitoring Centre for
Drugs and Drug Addiction (EMCDDA) and
EUROPOL.

5.

Arunesh Mathur, Gunes Acar, et al., Dark
Patterns at Scale: Findings from a Crawl of 11K
Shopping Websites, Proceedings of the ACM
on Human-Computer Interaction (Nov. 2019),
https://doi.org/10.1145/3359183: Researchers
used automated data mining techniques,
analyzing 11,000 websites to identify so-called
“dark patterns” on shopping websites that seek
to coerce, steer or deceive users into making
unintended or harmful decisions. Deceptive
practices were identified on 183 sites, and

15
recommendations were made for researchers and
regulators to address these patterns.
6.

Timothy Libert, An Automated Approach
to Auditing Disclosure of Third-Party Data
Coll ec ti o n in Websit e Pr iva cy Polic i es,
P r o c e e di n g s o f t h e W o r l d W id e W e b
Conference, WWW ‘18 (Lyon, France April 23–
27, 2018), https://doi.org/10.1145/3178876.3186087:
Conducted large scale audit of disclosure of data
collection in website privacy policies, analyzing
data flows from one million websites alongside
200,000 privacy policies, finding that, although
third party data collection is widespread, fewer
than 15% of data flows are disclosed, indicating
that most implementations of “notice and choice”
provisions are ineffective.

7.

Daniel Tr ielli and Nicholas Diakopoulos,
Search as News Curator: The Role of Google in
Shaping Attention to News Information, CHI
2019 (Glasgow, Scotland, UK May 4-9, 2019),
http://www.nickdiakopoulos.com/wp-content/
uploads/2019/04/Search-as-News-Curator.pdf:
Using an algorithm audit of Google Top Stories
box to demonstrate source concentration and
ideological skew of news, and subsequent shifts
in traffic and addition for publishers of news.

8.

Daniel Trielli & Nicholas Diakopoulos, Partisan
search behavior and Google results in the
2018 U.S. midterm elections, I nformation,
C omm u n icat ion & S o ci et y (2020), https://
www.tandfonline.com/doi/full/10.1080/136911
8X.2020.1764605: Study collected search terms

16
from people with differing ideological positions
concerning Senate candidates in the 2018
midterm election and used those search terms to
scrape web results. The study found that Google
results exhibit a “mainstreaming effect” that
partially neutralizes differentiation of search
by providing a set of common results, even to
dissimilar searches.
9.

A niko Hannak, Piotr Sapiezy nski, et al.,
Measuring Personalization of Web Search,
W o r l d W id e W e b C o n f e r e n c e 2 0 1 3 ,
W W W ‘13, at 527– 538 (2013), https://doi.
org/10.1145/2488388.2488435: Demonstrating
methodology to measure personalization in Web
search results that may prevent certain users
from accessing information that the search
engine’s algorithm decides is irrelevant.

10. Christian Sandvig, Kevin Hamilton, et al.,
Auditing Algor ithms: Research Methods
for Detecting Discrimination on Internet
Platforms, Paper presented to the International
Communication Association (Seattle, WA,
USA May 22, 2014), http://w w w-personal.
umich.edu/~csandvig/research/Auditing%20
Algorithms%20--%20Sandvig%20--%20ICA%20
2014%20Data%20and%20Discrimination%20
Preconference.pdf: Supporting the use of
data mining tools to develop methods to audit
algorithms used in large Internet platforms to
determine the existence of bias that may lead to
negative outcomes based on race, gender or class.

17
11. Le Chen, Ruijun Ma, et al., Investigating
the Impact of Gender on Rank in Resume
Search Engines, P roceedings of the 2018
CHI C on f e r e nc e on H u ma n Fa c t or s i n
C omputing S ystems , 1–14 (2018), https://doi.
org/10.1145/3173574.3174225; Investigating
gender-based inequalities in resume search
engines by collecting search results on major
online job boards for 855,000 job candidates, to
provide a statistical indication of discrimination
or unfairness.
12. Anikó Hannák, Claudia Wagner, et al., Bias in
Online Freelance Marketplaces: Evidence from
TaskRabbit and Fiverr, CSCW 2017, (Portland,
OR, USA February 25–March 1, 2017), https://
dl.acm.org/doi/abs/10.1145/2998181.2998327:
Collecting and analyzing 13,500 worker profiles
and information concerning the workers’ gender,
race, customer reviews, ratings and positions
in search rankings examining whether two
prominent online freelance marketplaces are
affected by racial and gender bias.
13. Luz Rello and Ricardo Baeza-Yates, Lexical
Q u a lity a s a Mea s ure fo r Tex tu a l Web
Accessibility, ICCHP 2012, Part I, Springer
LNCS 7382 at 404- 08 (Linz, Austria July
2012): Using scraping of text on websites to
evaluate accessibility of the sites for dyslexic
users and presenting a model that provides
recommendations for better accessibility in web
content.

18
14. Venkatadri, Giridhari, Elana Lucheruni, et al.,
Investigating sources of PII used in Facebook’s
targeted advertising. PoPETs at 227-244 (2018),
https://mislove.org/publications/ PII-PETS.
pdf: Investigating the sources of personally
identifiable information (PII) used for targeted
advertising in Facebook, finding that user
phone numbers and email addresses are used by
Facebook to allow its advertisers to target users.
15. Asplund, J., Eslami, M., Sundaram, et al.,
Auditing Race and Gender Discrimination in
Online Housing Markets, Proceedings of the
International AAAI Conference on Web and
Social Media , Vol. 14 at 24-35 (2020), https://
www.aaai.org/ojs/index.php/ICWSM/article/
view/7276: Demonstrating a technique for
building online profiles to audit Fair Housing Act
compliance. Results of investigation demonstrate
that indirect discrimination occurs in the number
and type of housing ads served based on the user’s
race, as well as in property recommendations
based on the user’s gender.
16 Jayant Madhavan, David Ko, et al., Google’s
Deep-Web Crawl, PVLDB 2008 (Auckland,
New Zealand August 23-28, 2008): Describing
a novel system for surfacing Deep-Web content
in coverage of search engines, including an
algorithm to navigate the search space and
identify URLs suitable for inclusion in a web
search index.
17. A nsley Post , Vijit Sha h, et a l., Baza ar:
Strengthening user reputations in online

19
marketplaces, Proceedings of the Symposium on
Networked System Design and Implementation
(NSDI) (Boston, MA, USA, Mar 2011), http://
www.usenix.org/events/nsdi11/tech/full_papers/
Post.pdf: Proposing a novel system that calculates
user reputations using data from prior successful
transactions to limit reputation manipulation.
18. Arash Molavi Kakhki, Chloe Kliman-Silver, et
al., Iolaus: Securing Online Content Rating
Systems, P roceedings of the International
World Wide Web Conference, WWW ‘13 (Rio
de Janeiro, Brazil May 2013), https://mislove.
org/publications/Iolaus-WWW.pdf: Using, inter
alia, content rating data to demonstrate the
effectiveness of a novel system to protect against
multiple-identity and rating-buying attacks.
19. Le Chen, Alan Mislove, et al., An Empirical
Analysis of Algorithmic Pricing on Amazon
Marketplace, Proceedings of the International
World Wide Web C onference , WWW ‘16 (
Montréal, Canada April 2016), https://dl.acm.org/
doi/10.1145/2872427.2883089: Using data about
best-seller products on Amazon Marketplace
to determine the algorithmic pricing strategies
used by sellers, and to characterize the effects
of these strategies on marketplace dynamics.
20. Shan Jiang, Le Chen, et al., On Ridesharing
Competition and Accessibility: Evidence from
Uber, Lyft, and Taxi, P roceedings of the
International World Wide Web Conference,
WWW ‘18 (Lyon, France April 2018), https://
personalization.ccs.neu.edu/static/pdf/jiang-

20
www18.pdf: Comparing Uber, Lyft and taxi data
to develop statistical techniques to examine the
relationship of transportation infrastructure
and socioeconomic influences on Vehicle for Hire
market features.
CONCLUSION
A Bright Line Test
Where information is made publicly available on the
Internet, Section 1030(a)(2)(C) of the CFAA cannot be
interpreted as prohibiting any means of accessing that
information, and cannot be construed as prohibiting
any motive for accessing that information, by terms of
service, employment agreements, company policies, or
the postings of any limitation of use.
Publicly disclosed information is publicly available.
This is a bright line in the sand. 8
Dated: July 8, 2020 		

Respectfully submitted,

A rnon D. Siegel, Esq.
655 Avenue of the Americas
New York, New York 10010

A ndrew Grosso
Counsel of Record
Mark D. Rasch
Ronald J. Jarvis
A ndrew Grosso & A ssociates
1101 Thirtieth Street NW,
Suite 500
Washington, D.C. 20007
(202) 298-6500
agrosso@acm.org
Counsel for Amicus Curiae

8. And we note that sand is primarily silicon.

APPENDIX

1a
Appendix ON THE BRIEF
APPENDIX — MEMBERS
U.S. Technology Policy Committee1
Association for Computing Machinery
1701 Pennsylvania Avenue, NW, Suite 200
Washington, DC 20006
(202) 580-6555
James Hendler , Ph.D. (Computer Science)
Chair, ACM U.S. Technology Policy Committee
Fellow of the ACM, AAAS and National Academy of
Public Administration
Member, National Security Directorate PNNL
Directors Advisory Committee
Member, National Academies Board on Research
Data and Information
Member, Homeland Security Science and
Technology Advisory Committee
Open Data Advisor, New York State
US Air Force Exceptional Civilian Service Medal
Director, Rensselaer Institute for Data Exploration
and Applications
Rensselaer Polytechnic Institute
A lec Yasinsac, Ph.D. (Computer Science)
Vice Chair, ACM U.S. Technology Policy Committee
Professor and Dean, School of Computing
University of South Alabama

1. Beyond the USTPC, the views of the persons listed in
this Appendix do not necessarily represent the views of the
organizations with which they are associated.

2a
Appendix
Mubasher Ahmed, MBA (Finance), M.S. (Computer
Science), COBIT, TOGAF, ITIL, CPHIMS, PAHM
Independent Consultant
Ricardo Baeza-Yates, Ph.D. (Computer Science)
Fellow of the ACM and IEEE
Director of Data Science
Northeastern University, Silicon Valley
Vinton Cerf, Ph.D. (Computer Science)
Internet Pioneer
Past President, Association for Computing
Machinery
Fellow of the ACM, IEEE, and Association of
Women in Science
U.S. Presidential Medal of Freedom
National Medal of Technology
ACM A.M. Turing Award
Internet Hall of Fame Pioneer
National Inventors Hall of Fame
IEEE Alexander Graham Bell Medal
Marconi Prize
Prince of Asturias Award
Japan Prize
Queen Elizabeth Prize for Engineering
Benjamin Franklin Medal
Founder and Former Chair, Internet Corporation
for Assigned Names and Numbers
Nicolas Christin, Ph.D. (Computer Science)
Associate Professor of Computer Science and
Engineering & Public Policy
Carnegie Mellon University

3a
Appendix
Lorrie Faith Cranor , D.Sc. (Engineering and Policy),
CIPT
Fellow of the ACM and IEEE
Director and Bosch Distinguished Professor in
Security and Privacy Technologies
CyLab Security and Privacy Institute
FORE Systems Professor of Computer Science and
Engineering & Public Policy
Carnegie Mellon University
William E. J. Doane, Ph.D. (Informatics)
Research Staff Member
IDA Science and Technology Policy Institute
A ndrew Grosso, J.D., M.S. (Physics), M.S. (Computer
Science)
Chair, U.S. Technology Policy Committee Law
Subcommittee
Andrew Grosso & Associates
Mark P. Hahn, CISSP, CSM
Director, Cloud Strategies and DevOps
Ciber Global LLC
Rebecca Herold, M.A. (Computer Science and
Education), FIP, CISSP, CIPP/US, CIPT, CIPM,
CISM, CISA, FLMI
Fellow of the Ponemon Institute
Top 100 Women Fighting Cybercrime
CEO and Founder
The Privacy Professor Consultancy

4a
Appendix
Harry Hochheiser , Ph.D. (Computer Science)
Chair, ACM U.S. Technology Policy Committee
Accessibility Subcommittee
Associate Professor of Biomedical Informatics
University of Pittsburgh
Director, Biomedical Informatics Training Program
University of Pittsburgh School of Medicine
Lance J. Hoffman, Ph.D. (Computer Science)
Fellow of the ACM
Member, Cybersecurity Hall of Fame
Distinguished Research Professor
The George Washington University
Paul E. Hyland, M.A. (Science, Technology and
Public Policy), MCP
Senior Member of the ACM
Chair, ACM U.S. Technology Policy Committee IP
Subcommittee
Senior Director, UX Development & Operations
Higher Digital
Adjunct Assistant Professor, Digital Media and Web
Technology
University of Maryland Global Campus
Douglas W. Jones, Ph.D. (Computer Science)
Associate Professor of Computer Science
University of Iowa

5a
Appendix
Meg Leta Jones, J.D., Ph.D. (Technology, Media, &
Society)
Associate Professor
Communication, Culture & Technology
Georgetown University
Cem K aner , J.D., Ph.D. (Psychology)
Member of the American Law Institute
Recipient, ACM SIGCAS Making a Difference
Award
Professor Emeritus of Software Engineering
Florida Institute of Technology
Lorraine Kisselburgh, Ph.D. (Media, Technology,
and Society)
Chair, ACM Technology Policy Council, Association
for Computing Machinery
Lecturer and Visiting Fellow (retired Faculty)
Purdue University
A aron Massey, Ph.D. (Computer Science)
Assistant Professor of Software Engineering
University of Maryland, Baltimore County
Jeanna Neefe Matthews, Ph.D. (Computer Science)
Member, ACM Council
Member, ACM Technology Policy Council
Co-Chair, ACM U.S. Technology Policy Committee
AI & Algorithms Subcommittee
Professor of Computer Science
Clarkson University

6a
Appendix
John M. Murray, Ph.D. (Engineering Science)
General Manager
Calidris Partners
Research Director
Linqto Inc.
Peter G. Neumann, Ph.D. (A pplied Mathematics) and
Dr. rerum naturalium (Math & Physics), CISSP
(honorary)
Fellow of the ACM, IEEE, and AAAS
Member, U.S. General Accounting Office
information Technology Executive Council
Member, National Science Foundation Computer
Information Science and Engineering Advisory
Board
Chief Scientist, Computer Science Laboratory
SRI International
Mark Rasch, J.D., Ph.D. (Public Policy)
Of Counsel
Andrew Grosso & Associates
Professorial Lecturer of Law
George Washington University School of Law
Arnon Rosenthal, Ph.D. (Computer Science)
The MITRE Corporation

7a
Appendix
Pamela Samuelson, J.D.
Fellow of the ACM
Contributing Editor, Communications of the ACM
Fellow of the John D. & Catherine T. MacArthur
Foundation
Director, Berkeley Center for Law & Technology
Richard M. Sherman Distinguished Professor of
Law and Information
University of California, Berkeley
Ben Shneiderman, Ph.D. (Computer Science)
Fellow of the ACM, AAAS and National Academy of
Inventors
Member, National Academy of Engineering
ACM SIGCHI Lifetime Achievement Award
IEEE Visualization Career Award
Founding Director, Human Computer Interaction
Lab
Distinguished University Professor of Computer
Science
University of Maryland Institute for Advanced
Computer Studies
University of Maryland, College Park
Barbara Simons, Ph.D. (Computer Science)
Past President, Association for Computing
Machinery
Founding Chair, ACM U.S. Technology Policy
Council
Co-Chair, ACM U.S. Technology Policy Committee
Voting Subcommittee
Fellow of the ACM and AAAS
ACM Policy Award
IBM Research (retired)

8a
Appendix
Oliver R. Smoot, J.D. (retired)
Past President, International Organization for
Standardization
Past Chairman of the Board, American National
Standards Institute
Past President, Computer Law Association (now
ITechLaw Association)
Past Chair, Science and Technology Law Section of
the American Bar Association
George S. Wham Medal, American National
Standards Institute
Leo B. Moore Medal, Standards Engineering
Society
Eugene H. Spafford, Ph.D., D.Sc. (Computer Science)
Fellow of the AAAS, ACM, IEEE, AAA&S, (ISC)2 ,
and Distinguished Fellow of the ISSA
Member, Cyber Security Hall of Fame
Professor and Executive Director Emeritus,
Center for Education and Research in Information
Assurance and Security
Purdue University
Patrick Traynor , Ph.D. (Computer Science and
Engineering)
Research Fellow of the Alfred P. Sloan Foundation
John and Mary Lou Dasburg Preeminence Chair in
Engineering
Professor of Computer Science and Engineering
Herbert Wertheim College of Engineering
University of Florida

9a
Appendix
K ashyap R. Tumkur , M.S. (Computer Science)
ACM Future of Computing Academy
Senior Software Engineer

